Petitioner’s Appendix A

United States of America
v.
China Hester
Decision of the United States
Court of Appeals for the Sixth Circuit
(unpublished)

Docket Number 19-3977
Issued August 19, 2020

Case: 19-3977

Document: 32-1

Filed: 08/19/2020

Page: 1

(1 of 6)

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: August 19, 2020

Ms. Kimberly Robinson
Mr. Blake P. Somers

Re: Case No. 19-3977, USA v. China Hester
Originating Case No. : 2:19-cr-00086-1
Dear Counsel,
The Court issued the enclosed (Order/Opinion) today in this case.
Sincerely yours,
s/Roy G. Ford
Case Manager
Direct Dial No. 513-564-7016
cc: Mr. Richard W. Nagel
Enclosure
Mandate to issue

FILED

Aug 19, 2020
DEBORAH S. HUNT, Clerk

Case: 19-3977

Document: 32-2

Filed: 08/19/2020

Page: 1

NOT RECOMMENDED FOR PUBLICATION
No. 19-3977
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
CHINA HESTER,
Defendant-Appellant.

)
)
)
)
)
)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF
OHIO

ORDER

Before: NORRIS, GRIFFIN, and LARSEN, Circuit Judges.

China Hester challenges her sentence on the basis of ineffective assistance of counsel. The
parties have waived oral argument, and this panel unanimously agrees that oral argument is not
needed. See Fed. R. App. P. 34(a).
Pursuant to a written plea agreement, Hester pleaded guilty to false representation of a
social security number, in violation of 42 U.S.C. § 408(a)(7)(B). The parties agreed that Hester’s
base offense level was 6 pursuant to USSG § 2B1.1(a)(2) and that 2 levels were added pursuant to
USSG § 2B1.1(b)(1)(B). Hester agreed to pay restitution in the amounts of $1,382 to LJ Ross, a
collection account for American Electric Power, and $2,928 to American Express. In the statement
of facts attached to the plea agreement, the parties stipulated that Hester served a 50-month
sentence for conspiracy to possess with intent to distribute 28 grams or more of cocaine base and
began a four-year term of supervised release in February 2017. After her release, Hester falsely
represented her social security number on four occasions: in addition to Hester’s use of a false
social security number on two rental applications, credit reports in her name but with false social

(2 of 6)

Case: 19-3977

Document: 32-2

Filed: 08/19/2020

Page: 2

No. 19-3977
-2security numbers reflected a collection account payable to LJ Ross for $1,382 and “an American
Express credit card opened in January 2019 with an all-time high balance of $5,543 and a current
balance of $2,928.”
Consistent with the plea agreement, Hester’s presentence report set forth a base offense
level of 6 and a 2-level increase for a loss more than $6,500 but less than $15,000. According to
the presentence report, Hester obtained fraudulent credit in the total amount of $6,925—$1,382
from American Electric Power and $5,543 from American Express. After a 2-level reduction for
acceptance of responsibility, see USSG § 3E1.1, Hester’s total offense level was 6, which,
combined with her criminal history category of IV, resulted in a guidelines range of six to twelve
months of imprisonment. The presentence report provided for restitution in the amounts of $1,382
to LJ Ross and $2,928 to American Express.
At sentencing, the district court confirmed that the parties had no objections to the
presentence report. After considering the relevant sentencing factors under 18 U.S.C. § 3553(a),
particularly Hester’s lengthy criminal history and the need to protect the public from further crimes
by her, the district court sentenced her to time served—seven months at that point—and three years
of supervised release and ordered her to pay $4,310 in restitution. The district court imposed a
consecutive eighteen-month prison term for Hester’s supervised release violation. Defense
counsel did not raise any objection, but Hester herself objected to the sentence: “It’s still too many
months. It should have been four to ten months. The dollar amount is still wrong. I’m still not
going to get credit for the months I spent in jail according to the last case. He said consecutive.”
Hester challenged the restitution amount in particular: “The American Express card that’s in the
case, that was not mine. That was an authorized user card. I don’t know how that (sic) even got
that I used it. I’ve never used the American Express card. The one for the electric bill is mine.”
The district court reviewed the plea agreement and the presentence report and confirmed the
restitution obligation of $4,310—$1,382 to LJ Ross and $2,928 to American Express. Hester
asserted that she wanted to appeal the restitution amount.

(3 of 6)

Case: 19-3977

Document: 32-2

Filed: 08/19/2020

Page: 3

No. 19-3977
-3This timely appeal followed. Seeking reversal of her sentence, Hester argues that she
received ineffective assistance because counsel (1) failed to resolve issues about the loss amount
that was attributed to her and resulted in an increased sentencing range and (2) failed to challenge
the timeliness of the presentence report. Hester’s eighteen-month sentence for her supervised
release violation is not at issue in this appeal.
In the plea agreement, Hester waived the right to appeal her conviction and sentence. But
Hester frames her appellate issues as claims of ineffective assistance of counsel, which are not
barred by her appeal waiver. We “ordinarily . . . will not review a claim of ineffective assistance
of counsel on direct appeal because the record is usually insufficient to permit an adequate review
of such a claim.” United States v. Gardner, 417 F.3d 541, 545 (6th Cir. 2005). “An exception to
this principle exists for cases in which the record is adequately developed to allow the court to
properly assess the merits of the issue.” United States v. Fortson, 194 F.3d 730, 736 (6th Cir.
1999). That exception applies to Hester’s ineffective-assistance claims. To establish ineffective
assistance of counsel, Hester must demonstrate (1) that counsel’s performance was deficient—
“that counsel’s representation fell below an objective standard of reasonableness”—and (2) that
counsel’s deficient performance prejudiced her defense—“that there is a reasonable probability
that, but for counsel’s unprofessional errors, the result of the proceeding would have been
different.” Strickland v. Washington, 466 U.S. 668, 687-88, 694 (1984).
Hester first argues that she received ineffective assistance because counsel failed to resolve
issues at sentencing about the loss amount used to determine her offense level. Without American
Express’s loss, Hester asserts, her total loss amount would have been $1382, her base offense level
would not have been increased by two levels, and her guidelines range would have been two to
eight months of imprisonment. As the government points out, Hester’s admissions defeat her
argument. In her plea agreement, Hester agreed to the two-level increase to her base offense level
pursuant to USSG § 2B1.1(b)(1)(B), which corresponded to a loss more than $6,500 but less than
$15,000. Hester also agreed to pay restitution in the amount of $2,928 to American Express. In
the statement of facts attached to the plea agreement, Hester stipulated that a credit report for her

(4 of 6)

Case: 19-3977

Document: 32-2

Filed: 08/19/2020

Page: 4

No. 19-3977
-4name and a false social security number “reflects an American Express credit card opened in
January 2019 with an all-time high balance of $5,543 and a current balance of $2,928.” During
the plea hearing, Hester affirmed under oath that she had read the plea agreement and the statement
of facts, that she had discussed them with her attorney, and that she understood and agreed with
them. In light of her admissions, Hester cannot demonstrate that counsel’s failure to pursue her
belated objection to the loss amount fell below an objective standard of reasonableness. See United
States v. Laskowski, 1 F. App’x 363, 367 (6th Cir. 2001); United States v. Williams, 176 F.3d 301,
312 (6th Cir. 1999).
Nor can Hester demonstrate prejudice. When Hester objected to the “dollar amount,”
particularly the inclusion of the loss from the American Express credit card, the district court
reviewed the plea agreement and the presentence report and confirmed the restitution obligation
of $4,310. Given that the district court considered and rejected her argument regarding the
American Express credit card, Hester cannot show that there is a reasonable probability that her
sentencing would have been different if counsel had pursued her challenge to the loss amount.
Hester next argues that she received ineffective assistance because counsel failed to object
to the timeliness of the presentence report. Under Federal Rule of Criminal Procedure 32(e)(2),
“[t]he probation officer must give the presentence report to the defendant, the defendant’s attorney,
and an attorney for the government at least 35 days before sentencing unless the defendant waives
this minimum period.” Hester asserts that the probation officer disclosed the presentence report
on September 11, 2019, less than thirty-five days before her sentencing on October 9, 2019. The
government contends that Hester effectively waived the thirty-five-day requirement by requesting
an expedited timeline for preparing the presentence report and sentencing to obtain an earlier
release from custody. Regardless, Hester cannot show prejudice. The presentence report was
consistent with the plea agreement as to the guidelines calculation and the restitution amount. At
sentencing, Hester affirmed that she had received a copy of the presentence report and that she had
read the presentence report and discussed it with her attorney. Hester has failed to show that the
shortened timeframe—twenty-eight rather than thirty-five days—affected her ability to challenge

(5 of 6)

Case: 19-3977

Document: 32-2

Filed: 08/19/2020

Page: 5

No. 19-3977
-5the presentence report or resulted in a more severe sentence. See United States v. Marrero, 651
F.3d 453, 473 (6th Cir. 2011).
For these reasons, we AFFIRM the district court’s judgment.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(6 of 6)

Petitioner’s Appendix B

United States of America
v.
China Hester
Judgment of the United States
District Court for the Southern District
of Ohio

(unpublished)

Docket Number 2:19-cr-086-1
Filed October 9, 2019

Case: 2:19-cr-00086-JLG Doc #: 41 Filed: 10/09/19 Page: 1 of 7 PAGEID #: 80

Case: 2:19-cr-00086-JLG Doc #: 41 Filed: 10/09/19 Page: 2 of 7 PAGEID #: 81

Case: 2:19-cr-00086-JLG Doc #: 41 Filed: 10/09/19 Page: 3 of 7 PAGEID #: 82

Case: 2:19-cr-00086-JLG Doc #: 41 Filed: 10/09/19 Page: 4 of 7 PAGEID #: 83

Case: 2:19-cr-00086-JLG Doc #: 41 Filed: 10/09/19 Page: 5 of 7 PAGEID #: 84

Case: 2:19-cr-00086-JLG Doc #: 41 Filed: 10/09/19 Page: 6 of 7 PAGEID #: 85

Case: 2:19-cr-00086-JLG Doc #: 41 Filed: 10/09/19 Page: 7 of 7 PAGEID #: 86

Petitioner’s Appendix C
Text of
42 U.S.C. §408(a)(7)(B)

Text of 42 U.S.C. § 408(a)(7)(B)
“Whoever -- . . .
(7) for the purpose of causing an increase in any payment authorized under this
subchapter (or any other program financed in whole or in part from Federal funds),
or for the purpose of causing a payment under this subchapter (or any such other
program) to be made when no payment is authorized thereunder, or for the purpose
of obtaining (for himself or any other person) any payment or any other benefit to
which he (or such other person) is not entitled, or for the purpose of obtaining
anything of value from any person, or for any other purpose-- . . .
(B) with intent to deceive, falsely represents a number to be the social security
account number assigned by the Commissioner of Social Security to him or to
another person, when in fact such number is not the social security account number
assigned by the Commissioner of Social Security to him or to such other person;…
shall be guilty of a felony and upon conviction thereof shall be fined under Title 18
or imprisoned for not more than five years, or both, except that in the case of a
person who receives a fee or other income for services performed in connection with
any determination with respect to benefits under this subchapter (including a
claimant representative, translator, or current or former employee of the Social
Security Administration), or who is a physician or other health care provider who
submits, or causes the submission of, medical or other evidence in connection with
any such determination, such person shall be guilty of a felony and upon conviction
thereof shall be fined under Title 18, or imprisoned for not more than ten years, or
both.

